fj

Case No.:
IN THE SUPREME COURT OF THE UNITED STATES

Zoe Ajjahnon, Plaintiff-Petitioner
v.

St. Joseph’s University Medical Center
And
RWJ Barnabas Health, Inc., Defendants - Respondents

On Petition for Writ of Certiorari to the Third Circuit Court of Appeals

PROOF OF SERVICE

I

/Hj

do swear and declare that on this date

Ms>/- Txn

as required by Supreme Court Rule 291 have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF
CERTIORARI and the concurrent MOTION FOR SEAL of the Complaint and Appeal of
the record of this case on each of the above proceeding or the party’s counsel by
commercial carrier FedEx for delivery within three calendar days.
\

The names and addresses of those served are:
1) Counsels for defendant St. Jospehs Medical Centre,
Jeffrey A. Krompier, esq; Jason M. Altschul, esq
Krompier & Tamn, LLC, 8 Wood Hollow Rd., Suite 202, Parsipanny, NJ 07054
2) Counsels for defendant RWJ Barnabas Health, Inc.
Robert J. Logan, esq.; Lauren M. Strollo, esq.
Vasios, Kelly & Strollo, P.A., 2444 Morris Ave., Suite 304, Union, NJ 07083-5711
I declare under penalty of peijury that the foregoing is true and corregk
Executed on,

021
Aj jahnon, Pn

' Plaintiff - Petitioner

